No. 20-8

 

 

IN THE
Supreme Court of the Anited States

DEUTSCHE BANK TRUST COMPANY AMERICAS, ET AL.,
Petitioners,

Vv

ROBERT R. MCCORMICK FOUNDATION, ET AL.,
Respondents.

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Second Circuit

BRIEF OF AMICI CURIAE LAW PROFESSORS
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,998 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 7, 2020.

Colin Casey i

Wilson-Epes Printing Co., Inc.
